No. 20-1383

IN THE SUPREME COURT OF THE UNITED STATES

ARTHUR DIAMOND et al.,
Petitioners,
v.
PENNSYLVANIA STATE EDUCATION ASSOCIATION et al.,
Respondents,
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

REPLY TO BRIEFS IN OPPOSITION

Brian K. Kelsey
Counsel of Record
Reilly Stephens
Liberty Justice Center
208 South LaSalle Street, Suite 1690
Chicago, Illinois 60604
Telephone: 312-637-2280
Facsimile: 312-263-7702
bkelsey@libertyjusticecenter.org

William Messenger
National Right to Work Legal
Defense Foundation
8001 Braddock Rd., Suite 600
Springfield, VA 22160
Telephone (703) 321-8510
Facsimile (703) 321-9319
wlm@nrtw.org
Attorneys for the Wenzig Petitioners

Jonathan F. Mitchell
Mitchell Law PLLC
111 Congress Avenue, Suite 400
Austin, Texas 78701
(512) 686-3940 (phone)
(512) 686-3941 (fax)
jonathan@mitchell.law

Attorney for the Diamond Petitioners

TABLE OF CONTENTS
INTRODUCTION .......................................................................................................... 1
A.

The Court should resolve the conflict between the Third Circuit and
several other circuits concerning whether there exists a good-faith
defense to Section 1983. ........................................................................... 2

B.

This case presents questions of national importance. ............................ 6

C.

This case is an excellent vehicle to resolve the questions presented. .... 9

CONCLUSION............................................................................................................. 10

ii

TABLE OF AUTHORITIES
Cases
Davies Warehouse Co. v. Bowles, 321 U.S. 144 (1944) ................................................. 8
Janus v. AFSCME, Council 31, 138 S. Ct. 2448 (2018) ................................. 1, 2, 8, 10
Jordan v. Fox, Rothschild, O’Brien, & Frankel, 20 F.3d 1250 (3d Cir. 1994) ......... 2, 7
Owen v. City of Independence, 445 U.S. 622 (1980) ..................................................... 6
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749 (1995) ................................................ 4
Wyatt v. Cole, 504 U.S. 158 (1992) ............................................................................ 1, 2
Statutes
42 U.S.C. § 1983 ................................................................................................... passim
71 Pa. Stat. Ann. § 575 .................................................................................................. 5

iii

INTRODUCTION
The Commonwealth of Pennsylvania acknowledges that this Court raised, but did
not decide, the question of whether there exists a good-faith defense to Section 1983
in Wyatt v. Cole, 504 U.S. 158, 169 (1992). Commonwealth Br. 8. It is time for the
Court to finally decide that question. Based on a misconception of what the Court
wrote in Wyatt, several appellate courts recently recognized a categorical good-faith
defense to Section 1983 that deprives victims of constitutional deprivations of all
monetary relief for their injuries if the defendant relied on a state law before it was
held unconstitutional. This ostensible defense is being used to deny relief to tens of
thousands of workers who were forced to subsidize union speech in violation of their
First Amendment rights under Janus v. AFSCME, Council 31, 138 S. Ct. 2448 (2018).
A majority of the Third Circuit panel below, however, correctly recognized that a
categorical good-faith defense to all Section 1983 claims was not what this Court was
suggesting in Wyatt. See App. A at 34-36 (Judge Fisher, concurring in the judgment);
id. at 50 (Judge Phipps, dissenting). Indeed, there is no a “valid basis for recognizing
such a defense.” Id. at 46 (J. Phipps, dissenting). “Good faith was not firmly rooted as
an affirmative defense in the common law in 1871, and treating it as one is inconsistent with the history and the purpose of § 1983.” Id. at 56. The Court should grant
review to clear up the confusion over what it intended in Wyatt and to repudiate the
categorical good-faith defense that several courts have mistakenly created.

1

A. The Court should resolve the conflict between the Third Circuit and
several other circuits concerning whether there exists a good-faith defense to Section 1983.
1. This case differs from other recent cases in which this Court denied certiorari
because, here, a majority of the Third Circuit panel rejected the categorical good-faith
defense to Section 1983 liability now recognized by six other circuit courts. See App.
A at 24 (Judge Fisher, concurring in the judgment); id. at 47 (Judge Phipps, dissenting). Only Judge Rendell, writing for herself, accepted this ostensible defense. Id. at
14. Thus, there exists a conflict of authority on the first question presented: is there
a good-faith defense that shields private defendants from Section 1983 liability for
actions done under color of state laws before they are held unconstitutional?
The Commonwealth tries to obscure this conflict and sow confusion by using the
phrase “good faith defense” to describe two different things. See Commonwealth Br.
9-11. A clarification of terms is necessary. First, there is a claim-specific good-faith
defense, in which malice and lack of probable cause are deemed elements of a specific
constitutional deprivation. This is the narrow defense to due process deprivations
that the Court suggested in Wyatt v. Cole, 504 U.S. 158, 166 n.2 (1992), and that the
Third Circuit later recognized in Jordan v. Fox, Rothschild, O’Brien, & Frankel, 20
F.3d 1250, 1276 (3d Cir. 1994). See Pet. 13-17. This claim-specific defense “is of no
moment here because a claim for compelled speech does not have a mens rea requirement.” App. A at 54 (J. Phipps, dissenting); see Janus, 138 S. Ct. at 2468.
Second, there is a categorical good-faith defense, in which a defendant’s good-faith
reliance on state law is considered an affirmative defense to all constitutional claims

2

for damages or restitution brought under Section 1983. This is the broad, new defense
that six circuit courts recently recognized in cases concerning union agency fee seizures. See Pet. 6 (citing cases). A conflict of authority exists with respect to this ostensible defense because both Judges Fisher and Phipps unambiguously rejected a
categorical good-faith defense to Section 1983. See App. A at 33 (J. Fisher, concurring
the judgment); id. at 50, 54 (J. Phipps, dissenting).
With this distinction in mind, it is clear that the Commonwealth is wrong when
it argues that no conflict of authority exists because Judge Fisher recognized that
“private parties sued under Section 1983 were, in certain cases, protected by a good
faith defense.” Id. at 11 (emphasis added). Judge Fisher was referring to a claim specific defense—i.e., one that is “context dependent.” App. A at 33. Judge Fisher was
not referring to a broad defense that “applies categorically to all cases involving private-party defendants,” which he rejected. Id. The Court should resolve the conflict
among circuits concerning whether a categorical good-faith defense exists because,
among other reasons, “neither the history nor the purpose of § 1983 supports the
recognition of good faith as an affirmative defense for violations of every constitutional right.” Id. at 52 (J. Phipps, dissenting).
2. Unlike with the first question presented, Respondents are correct that the circuit courts have been unanimous on the second question: are employees who had
compulsory union fees seized from them in violation of their First Amendment rights
prior to Janus entitled to damages or restitution for their injuries? This unfortunate

3

unanimity is reason for the Court to grant to review.1 When the lower courts are
uniformly wrong, only this Court can correct their error. And the lower courts were
wrong to conclude that unions are exempt from Section 1983 liability because they
relied on state laws when unconstitutionally seizing agency fees from employees.
Acting under color of a state law is an element of Section 1983, not a defense to
the statute. Section 1983 states that “[e]very person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State” deprives a citizen of a constitutional right “shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress.” 42 U.S.C. § 1983 (emphasis added). The statute’s
historical purpose was “to remedy actions taken in accordance with state law.” App.
A at 54 (J. Phipps, dissenting) (emphasis in original). “[T]hus a good faith affirmative
defense–that a state actor was merely following state law—is an especially bad fit as
an atextual addition to § 1983.” Id. Indeed, the defense turns Section 1983’s text and
purpose on their head. See Pet. 11-13.
An affirmative defense predicated on a defendant’s good-faith reliance on a later
invalidated state law also defies this Court’s retroactivity jurisprudence. See Pet. 2223. The Court made clear in Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 759
(1995) that courts cannot create equitable remedies based on a party’s reliance on a
statute later held unconstitutional by this Court.

If the Court takes the first question, it should take the second question because
the questions are interrelated.
1

4

The three rationales cited by lower courts in agency fee cases for recognizing a
categorical good-faith defense are untenable for the reasons discussed in the Petition
and Judges Phipps’s and Fisher’s opinions. The categorical defense is not the defense
suggested in Wyatt, is not justified by policy interests in fairness and equality, and is
not supported by a strained analogy to an abuse-of-process tort. See Pet. 13-22; Pet.
App. A at 24 (Fisher, J., concurring in the judgment); id. at 46 (Phipps, J., dissenting).
The Commonwealth contends it would be unfair to hold unions liable for agency
fees they took from employees because unions “lacked discretion under state law and
relied on binding precedent from this Court.” Commonwealth Br. 12, 12-16. In support of this contention, the Commonwealth asserts that its agency fee law “required
employees to pay fair share fees,” and “required both union and public employers to
effectuate fair share agreements by deducting the fees from employees’ paychecks.”
Id. at 13. The argument fails in at least two respects.
First, the Commonwealth’s assertions about its agency fee law are misleading.
The law states that “[i]f the provisions of a collective bargaining agreement so provide,
each nonmember of a collective bargaining unit shall be required to pay to the exclusive representative a fair share fee.” 71 Pa. Stat. Ann. § 575(b) (emphasis added).2
The law calls for agency fee deductions only where unions chose to enter into “fair
share agreements” with public employers. Id. at § 575(c). Contrary to the false im-

The Commonwealth omitted the italicized words in its citation to 71 Pa. Stat.
Ann. § 575(b) on page 13 of its brief.
2

5

pression the Commonwealth attempted to create, nothing in Pennsylvania law required unions to seize agency fees from employees. The Respondent Unions had discretion not to enter into agency fee agreements, but chose to do so in order to seize
agency fees from nonmember employees.
Second, as Judge Phipps recognized, “[n]either equality nor fairness overwhelmingly favors the reliance interests of the unions in pre-existing law over the free
speech rights of non-members who were compelled to support the unions.” App. A at
74 (J. Phipps, dissenting). Judge Phipps is right. It is unfair to make victims of constitutional deprivations bear the burden of a defendant’s unconstitutional conduct.
Id. at 18-21. The Court recognized this point when rejecting the proposition that Section 1983’s equitable purposes justified creating a good-faith immunity for municipalities in Owen v. City of Independence, 445 U.S. 622, 654 (1980), stating “elemental
notions of fairness dictate that one who causes a loss should bear the loss.”
Here, the Respondent Unions caused the loss when they seized agency from nonmembers without their consent and in violation of their First Amendment rights.
Fairness dictates that the Unions make these nonmembers whole for their losses and
not that these innocent employees be forced pay for the Unions’ unlawful conduct.
Principles of fairness, therefore, also support rejecting the notion that there exists a
categorical good-faith defense to Section 1983.
B. This case presents questions of national importance.
1. Section 1983 was enacted one-hundred-fifty years ago to provide a remedy to
persons deprived of constitutional rights by parties that act under color of state law.

6

See Owen, 445 U.S. at 650-51. It is highly significant that seven courts of appeals—
the First, Second, Third, Fourth, Sixth, Seventh, and Ninth—have now decided that
defendants owe no remedy under Section 1983 if they acted under a state law before
it was held unconstitutional. These courts have rendered Section 1983 largely selfdefeating, at least with respect to retroactive relief, because almost any defendant
that acts under color of state law, as the statute requires, will have a defense to Section 1983 liability for the same reason. The massive hole that these courts have
carved into the nation’s preeminent civil rights statute is a matter of exceptional importance that this Court should address and rectify.
The Commonwealth advances contradictory positions concerning the scope of a
categorical good-faith defense. First, the Commonwealth claims (at 9) that the defense is narrow and applies when a defendant relies on both a state statute and controlling Supreme Court precedent. See also Resp. Union Br. 16 (similar). Later, the
Commonwealth acknowledges (at 13) that “good-faith cases outside the Janus context
typically implicate situations in which the validity of the underlying state law was
an open legal question.”
The Commonwealth’s second position is closer to the mark—a defendant acting
under color of any state law yet to be held unconstitutional could support a good-faith
defense. According to Judge Rendell, a “good faith defense is available to a privateparty defendant in a § 1983 case if, after considering the defendant’s ‘subjective state
of mind,’ the court finds no ‘malice’ and no ‘evidence that [the defendant] either knew
or should have known of the statute’s constitutional infirmity.’” App. A. at 18 (quoting

7

Jordan, 20 F.3d at 1276-77). This standard does not require reliance on this Court’s
precedents. The defense merely requires the defendant either knew or should have
known the statute was unconstitutional. Given that state statutes are presumed to
be constitutional until their invalidity is judicially declared, see Davies Warehouse
Co. v. Bowles, 321 U.S. 144, 153 (1944), a defendant acting pursuant to any statute
that has not been judicially declared invalid could support a good-faith defense. This
will encompass virtually all private defendants sued under Section 1983, for it is difficult to invoke a state law after a court declares it invalid. A categorical good-faith
defense threatens to severely undermine Section 1983’s remedial framework. This
Court’s immediate review is warranted.
2. The second question is important because its resolution will determine whether
victims of agency fee seizures receive relief for their injuries. See Pet. 24. In Janus,
the Court lamented the “considerable windfall” that unions wrongfully received from
employees during prior decades, finding, “[i]t is hard to estimate how many billions
of dollars have been taken from nonmembers and transferred to public-sector unions
in violation of the First Amendment.” 138 S. Ct. at 2486. Yet, as the Respondent Unions note (at 5), seven courts of appeals and thirty district courts have now refused to
hold unions liable to nonmembers for any monetary relief. Absent this Court’s timely
review, the Respondent Unions and other unions will get to keep their ill-gotten windfall and nonmembers will receive nothing for their injuries. This Courts intervention
is, therefore, necessary to secure the promise of Janus for tens of thousands of workers around the country.

8

C. This case is an excellent vehicle to resolve the questions presented.
This case squarely presents the questions posed in the Petition and does not involve any extraneous procedural or jurisdictional issues that could complicate the
Court’s resolution of those questions. Judges Phipps’ dissenting opinion cogently explains why the Court should reject a categorical good-faith defense and hold the Respondent Unions liable for repaying the agency fees they seized from employees. The
case is, thus, an excellent vehicle to resolve the questions presented.
The Respondent Unions point out that the Court has denied several petitions for
certiorari that raised similar questions. Resp. Unions Br. 1. But those petitions arose
from unanimous circuit court decisions that recognized a categorical good-faith defense. Id. at 1 n.1. This petition, by contrast, concerns a decision with three opinions,
two of which rejected the categorical defense recognized by other circuits in agency
fee cases. See infra 1-4. This petition presents an ideal case in which to resolve the
conflict of authority that exists between the Third Circuit and other circuit courts on
this issue.
The Commonwealth contends (at 13) that, because “[t]he Unions here relied on a
statute that was unquestionably constitutional based on then-controlling precedent,”
this case is a flawed vehicle to resolve whether a good-faith defense exists. All this
amounts to an argument that, if there is a good-faith defense to Section 1983, the
Unions here qualify for it. But that is no reason for the Court not to determine, in
this case, if the ostensible defense even exists.
The Commonwealth’s premise also is flawed because, even if the Court found a
good-faith defense to exist (the first question presented), the second question of
9

whether the Respondent Unions must pay damages or restitution to injured employees would remain. A good-faith defense should not shield the Respondent Unions from
paying damages because they should have known that the constitutionality of agency
fee provisions “was uncertain,” Janus, 138 S. Ct. 2485, and that a decision holding
agency fee laws unconstitutional would apply retroactively. See Pet. 25-26. The defense also should not shield the Respondent Unions from restitution of the money
that they took from employees in violation of their constitutional rights. Id. at 26-28.
This case presents these issues to the Court, making it an excellent vehicle to determine both whether there is a good-faith defense to Section 1983 and, if there is, the
scope and elements of such a defense.
CONCLUSION
For the forgoing reasons, the petition should be granted.
Dated: May 24, 2021

Respectfully Submitted,

Brian K. Kelsey
Counsel of Record
Reilly Stephens
Liberty Justice Center
208 South LaSalle Street, Suite 1690
Chicago, Illinois 60604
Telephone: 312-637-2280
Facsimile: 312-263-7702
bkelsey@libertyjusticecenter.org

William Messenger
National Right to Work Legal
Defense Foundation
8001 Braddock Rd., Suite 600
Springfield, VA 22160
Telephone (703) 321-8510
Facsimile (703) 321-9319
wlm@nrtw.org
Attorneys for the Wenzig Petitioners

Jonathan F. Mitchell
Mitchell Law PLLC
111 Congress Avenue, Suite 400
Austin, Texas 78701
(512) 686-3940 (phone)
(512) 686-3941 (fax)
jonathan@mitchell.law

Attorney for the Diamond Petitioners

10

